' No.

R

ill

byIftL

IN THE
SUPREME COURT OF THE UNITED STATES

KYLE

PATRICK

COMRIE

J_— PETITIONER

(Your Name)

filed
SEP 2 2 2020

VS.

liJ. L. MONTGOMERY, WARDEN— RESPONDENT(S)

-SUPREMECOURf

ON PETITION FOR A WRIT OF CERTIORARI TO

L

THE COURT OF APPEAL STATE OF CALIFORNIA
______FOURTH APPELLATE DISTRICT, DIVISION TWO_______

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

KYLE

PATRICK

COMRIE

CDCR

BG781B

(Your Name)
701R

Rlair

Road/P.O.

Box

5002

(Address)

Calipatria, CA 92233-5002
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
Petitioner's first degree murder conviction was invalid under People v, Chiu as
there was no basis to find that the iurv did not rely on aiding and abetting
under the natural and probable consequences theory as argued by the prosecutor.
The Trial Court read the verdict forms Count 1 , for first degree murder, with no
special

findings:

degree burglary.

Count 2,

first degree residential robbery;

Count 3,

first

The jury made a specific finding that a person was present

during the commission of the first degree burglary to be true. No other findings
were made. (1 CT 238.')
The due process clause found in both the Fourteenth and Fifth amendments to the
United States Constitution requires oroof beyond a reasonable doubt of every fact
necessary to constitute the crime in order to convict the accused. This should
hold true fnr felony murder cases , but. the doctrine of felony murder circumvents
this important principle and allows for conviction and punishment to be the same
as for those who committed a murder with malice aforethnught.

DID THE TRIAL COURT PERMIT PREJUDICIAL ERROR BY ALLOWING THE JURY FIND FIRST
DEGREE MURDER IN A CASE WHERE THEY MADE NO SPECIFIC FINDINGS OF FACT ON EACH AND
EVERY REQUIRED ELEMENT OE THE OFEENCE?

WAS PETITIONER GIVEN DUE PROCFSS PROTECTIONS WHEN THE PROSECUTOR WAS RELIEVED OF
PROVING ALL ELEMENTS TO FIRST DEGREE MURDER BEYOND A REASONABLE DOUBT?

DID THE COURT OF APPEAL. VIOLATE THE PROSCRIPTION IN SANDSTROM?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
California Attorney General
San Diego Office
600 kl. Broadway St., Suite 1800
San Diego, CA 92101

California Appellate Project
Appellate Defenders, Inc.
555 Ideat Beech St., Suite 300
San Diego, CA 92101

RELATED CASES
People of the State of California
Us.
Jacob Bock5 et al., Appellate Case No. E070783.

TABLE OF AUTHORITIES CITED
FEDERAL CASES

PAGE NUMBER

Alleyne v, United States (2013) 570 U.S. 99

1 7.1 8,20,22

Anders v. California (1967) 386 U.S. 738
Apprendi v. New Jersey (200Q1 530 U.S

466

25
120 .S.Ct. 2348, 147 L.Ed.,2d 435 .... 19

Chapman v.. California (1 967) 386 U.S. 18
Douglas v. California (1 963) 372 U.S. 353, 9 I...Ed.2d 811

..10
83 S.Ct. 814 ................. 24

Estelle v. McGuire (1991) 502 U.S. 62

. .10

Hamling v. U.S., 418 U.S, 87 (1974)

24

Holmes \/. S. Carolina (2006) 1 26 S.Ct. 1727

10

In re Uinship (1970) 397 U.S. 358

10

Jackson v. Virginia (1979) 443 U.S. 307

10

Martinez v. Court of Appeal (2000) 528 U.S. 152 .

25

Osborne v. Ohio (1990) 495 U.S. 103 .

.10

Richardson v. U.S.. (1 9991 526 U.S,. 813

27

UNITED STATES CONSTITUTION
AMENDMENT \l
AMENDMENT VI
AMENDMENT VIII
AMENDMENT XIV .

passim
• .

passim
passim

, . oassim

FEDERAL STATUTES
28 U.S.C. § 1257

STATE COURT CASES
Auto Equity Sales Tnc. v. Superior Court of Santa Clara County (1962)

passim

57 Hal.2d 450

.,22

Evangelatos v. Superior Court (1998) 44 Cal,3d 1188

18

In re Barnett (2003) 31 C4th 466

24

In re Diaz (2D17) 8 Cal.flnp.5th 812

, .23

In re Estrada (1 995) 11 Cal.4th 568 ..
In re Kevin S.

(2003) 113 CA4th 97 .

In re Pedro T.

(1994) 8 Cal.4th 1041

passim
24
.

18

In re Smith (1 970) 3 Cal.3d 192

25

People v. Ary (2004) 118 CA.4th 1016 .„

24

People v.

Banks (2015) 61 Cal.4th 788

.13

Peoole v. Bill a (2003) 31 Cal.4th 1064

16

People v. Bland (2002) 28 Cal.4th 313

16

People v

Carasi (21108) 44 Cal.4th 1263

11 .

People v. Cavitt (2004) 33 Cal.4th 187. 193 .

12

Peoole v. Chiu (2014) 59 Cal.4th 155 .

.

17,1 9.20 22

People v. Conley (2016) 6.3 Cal. 4th 6^6

18

Cooper (1 991 ) 53 Cal. 3d 1158

25

People v.

People v. Delgado (2013) 56 Cal.4th 480 .

25

/

People v.. Favor (201 2) 54 Cal.4th 868

17,21

People v. Francis (1969) 71 Cal.2d 66 .

. .1 8

People v. Harden (2003) 110 Cal.App.4th 848
People v.

22

Harris (2013) 57 Cal.4th 804

22

Peoole v. Johnson (1 981 ) 1 23 Cal.App.3d 106
People v.

25

Johnson (1992) 5 Cal.App.4th 552

13

Peoole v.. Johnson (2004) 119 CA4th 976

24

People v. Lee (2003) 31 Cal..4th 613
People v. Martinez (Jan. 24.

2019, B2B7255)

20,21
Cal .Add.5th

17,18

Pecmle v.

Medina (2009) 46 Cal.4th 913

26

Peoole v. Nazari (2010) 1 R7 Cal.App„4th 1101

11

People v, Nunez (2013) 57 Cal.4th 1

22

..

People v. Pavsinger (2009) 174 Cal.Add,4th 26

15

People v. Prettyman (1996) 14 Cal.4th 248

26

People v. Pulido (1997) 15 Cal..4th 723

12

Peoole v. Redmond (1969) 71 Cal.2d 745

. 10

Penple \/. Reyes (1974) 12 Cal.3d 486

10

People v.. Remero (2008) 44 Cal.4th 386. 401

11

People v.. Saez (2015) 237 Cal.App.4th 1177

22

People v. Scott (1 994) 9 C.4th 331

24

People v. Smith (2003) 31 C4th 1207

24

People v/. Snyder (2003) 112 Cal.App.4th 1200

11

People v. Von Staich (1 980) 1 01 Cal.App..3d 172

25

People y. White (1969) 71 Cal.2d 80

18

Peoole v. Wilkins (2013) 56 Cal.4th 333

1 2.1 3,14

CALIFORNIA STATUTES

•

EVIDENCE CODE § 452

8

GOVERNMENT CODE § 9604 ..

6

GOVERNMENT CODE § 9605

6

GOVERNMENT C0DF § 9606

6

GOVERNMENT CODE § 9607

6

GOVERNMENT CODE § 9608

6,17

PENAL CODE § .31

25

PENAl CODE § 187

5

PENAL CODE § 188(a)(3)

6,23

PFNAL CODF § 189(e) .

6,14

PFNAL CODE § 190(a)

.20

PENAL CODE § 190.2 „

6 7,13,23

PENAL CODE § 190.4

14

PENAL CODE § 211

5

PENAL CODE § 212.5

5

PENAL CODE $ 459

5

PENAL. cnnE § 664(a)
PENAL CODE § 11 70.95

passim
. . „

5 14,17

PFNAL CODE 5 1203 6(a)(1)

5

PENAL. CODE § 1259

. 24

PENAL. CnDE $ 3046(a)(1)

20

PEMAL PODF § 3046(a)(2)

.20

PEMAL CODE § 12022.53(b)
PENA

5

DDE 5 12022.53(c)

. 5

PENAL CODE $ 1 2n72 53(d) .
WELFARE AMP Institutions CODE § 707(d)(2)(A) .
WELFARE AMD INSTITUTIONS CODE § 707(d)(2)(B)

.. 5
.
5

OTHER STATUTES
SENATE RILL 1437

passim

SENATE CONCURRENT RESOLUTION 48

passim

CALIFORNIA
RULES OF COURT, RULE 8..700(a)(5)

15

RULES OF COURT, RULE P ?6n(b)(1) .

23

RIJLFS DF COURT,

RULE 8.360(c)(3)

PULES nF COURT,

RULE

RULES OF cni!PT

RULE 8 5.32(h)(1)

RU E

RULE 1115(h) 1-2)

nF CrniRT,

5P0(r (1)

23
.

23
. . 23
R

CALIFORNIO CRIMINAL OIJRV INSTRUCTIONS
NO

322

9

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

□pinion Court of Appeal & Petition for Rehearing with denial.

APPENDIX B

California Supreme Court Denial & Petition for Review.

APPENDIX C

Closing Arguments within Reporters Transcripts thru Redirect.

APPENDIX D

Information filed, Oury Instructions & Questions by Jury.

APPENDIX E

Correspondence Letters to and from Attorney on acts S.B. 1437.

APPENDIX F

The current (August 20, 2020), of Penal Code § 1170.95, Senate
Concurrent Resolution 48. Senate Bill 1437, and the San
Bernardino County District Attorney's Office response to
1170.95 Petition filed June 3, 2020.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_B__ to the petition and is
• [ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the Court of Appeal, Fourth District, Div. Tuocourt
appears at Appendix__ fl__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X-] is unpublished.
1.

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a wit of certiorari was granted
to and including____ _
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was 3une 24, 2020
B.
A copy of that decision appears at Appendix
[x] A timely petition for rehearing was thereafter denied on the following date:
June 24. 2020
, and a copy of the order denying rehearing
R
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved in this
case.
U.S. CONST., AMEND. V
. No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Oury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time
of War or public danger; nor shall any person be subject for the same offence
.

to be twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case

to

be

a witness

against himself,

nor be

deprived of life,

liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.

U.S. CONST., AMEND. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously ascertain­
ed by law, and to be informed of the nature and cause of the .accusation; to be
confronted with the witnesses against him; to have compulsory process for ob­
taining witnesses in his favor, and to have the Assistance of Counsel for his
defence.

U.S. CONST., AMEND. VIII
Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.

3.

U.S. CONST., AMEND. XIV
Section 1. All Persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the
laws.

28 U.S.C. § 1257(a)
(a) Final judgments or decrees rendered by the highest court of a State in
which a decision could be had, may be reviewed by the Supreme Court by writ of
certiorari where the validity of a treaty or statute of the United States is
drawn in question or where the validity of a statute of any State is drawn in
question on the ground of its being repugnant to the Constitution, treaties, or
laws of the United States, or where any title, right, privilege, or immunity is
specially set up or claimed under the Constitution or the treaties or statutes
of, or any commission held or authority exercised under, the United States.

4.

STATEMENT OF THE CASE
On September 15, 2016

the San Bernardino County District Attorney filed an

information alleging that Bock and Comrie committed premeditated murder
(Pen. Code. 1 §§ 1B7, subd. (a), 8- 664, subd. (a); count 1), first degree
residential robbery (§§ 211 & 212.5; count 2), and first degree burglary
with a person present

(§ 459;

count 3),

(1

CT 65-70.)

The information

further alleged that, with respect to counts 1 and 2, Bock personally and
intentionally discharged a firearm, proximately causing great bodily injury
(§ 12022.53, subd. (d)), personally and intentionally discharged a firearm
(12022.53,
(b)).

subd.

(c)).

and personally used a firearm (§ 12022.53,

subd.

(1 CT 66-6B.) With respect to count 3, the information alleged that

Bock personally used a firearm (§ 1203.6. subd. (a)(1)). (1 CT 70.) Finally,
the information alleged that Bock was a minor who was at least 14 years of
age at the time of the commission of the offenses. (Welfare & Inst. Code, §
707, subds. (d)(2)(A) [with respect to count 1] & (d)(2)(Bl [with respect to
all counts].)(1 CT 67-70.)
The trial court held a joint trial with separate juries. On April 17, 201B,
a jury convicted Comrie of all charges. (2 CT 293-296; 3 RT 641-642.) The
next day, a jury convicted Bock of all charges and returned true findings on
all allegations. (2 CT 309-319; 4 RT 675-6B2.)
On May 17, 201B, the trial court sentenced Bock to a total indeterminate
term of 50 years to life in prison. (2 CT 480-482; 4 RT 698-700.) On Oune
22, 201B, the trial court sentenced Comrie to an indeterminate term of 25
years to life in prison.

(2 CT 49B-501 ; 4 RT 706-707.) On Oune 25, 201B,

Petitioner filed his notice of appeal. (2 CT 505-506.)

1

All further unspecified statutory references are to the Penal Code.
5.

STATEMENT ON APPEAL
On April 28, 2020

the Appeals Court after briefing by the Darties affirmed

the judgment. Petitioner contends the Attorney General who represented the
People mistakenly conflated the retrospective and prospective applications
of Senate Bill 1437 as it pertains to retrial. The AG's argument is that
they get to ex Dost facto determine Comrie acted with reckless indifference
to human life and was a major participant pursuant to changes to § 189,
subd.

(e),

amended by Senate Bill 1437 on January 1, 2019. Although the

People did not charge Comrie with § 190.2, which carries similiar language.
The Petitioner on appeal contended that S.B. 1437 established a retroactive
relief for those who were convicted of felony murder under the natural and
probable consequences doctrine. The Legislature changed the Penal Code §
1B8. subd. (a)(3) now states, "Except as stated in subdivision (e) of Sect­
ion 189, in order to be convicted of murder, a principal in a crime shall
ect with malice aforethought. Malice shall not be imputed to a person based
solely on his or her participation in a crime."

PETITION FOR WRIT OF CERTIORARI
The People have argued successfully on countless aoceals that S.B. 1437 does
not provide relief on direct appeal.
Petitioner petitions this Court for a Writ of Certiorari to remedy this
absurd

result

which

manifests

a

fundamental

constitutional

error which

affects the whole State of California and gives clear Legislative intent bv.
giving clear direction on the state of the law through it's construction.
Therefore, this Court, issuing a Writ directing the Court of Appeal to con­
sider the California Government Code §§: 9604-9608, as/^and it's direction of
the In re Estrada (1 995) 11 Cal.4th 568, Rule.

6.

STATEMENT OF PERTINENT FACTS
Trial Court's Failure to Properly Instruct Jury
The Petitioner's defense was that he intended only to commit robbery and
burglary, that he did not intend to kill victim "Merrigan," and that his
felony murder liability terminated before a codefendant returned and shot
Merrigan. (3 RT 463-478.)
There was also overwhelming evidence that codefendant Bock was the shooter.
He admitted shooting Merrigan in the head. He also admitted that, he did it
to escape being identified, a witness interview corroborated his account.
The autopsy showed that Merrigan was alive when Bock shot him. (2 RT 2B8.)
Indeed, the jury returned a true finding on the personal gun use allegation.
Thus, the uncontroverted evidence overwhelmingly showed that Bock intended
to kill.
An aider and abettor acts with reckless indifference to human life when he
appreciates that his conduct involves a grave risk to human life. But. the
People chose for strategic purposes not to charge or put before the jury a §
190.2 allegation for them to decide whether Petitioner "was a major partic­
ipant and acted with reckless indifference"in this case.
The forensic pathologist testified that the blunt force trauma injuries were
sc severe that Merrigan would have died within minutes. (2 RT 293.) Comrie's
defense Attorney pressed to get a more definitive statement about "minutes,"
but, the pathologist had refused to give an answer. It should be noted that
Merrigan was alive before Rock shot him, and petitioner had already left
approximately ten to fifteen minutes prior to the shooting.
The jury being given instructions which omitted Petitioner was a major part­
icipant acting with reckless indifference in the killing of Merrigan, was a
prejudicial error when on appeal it is a significant factor to affirm the
conviction. This fact must have been proved beyond a reasonable doubt.
7.

REQUEST FOR JUDICIAL NOTICE PURSUANT TO SECTION 452 OF THE EVIDENCE CODE
The Petitioner

(herein,

"Comrie" or

"Petitioner"), respectfully request

that this Court take judicial notice of the following:
1 .
The decision and records in People v. Jacob Bock et al., [unpublish­
ed opinion] Court of Appeal Case No. E0707B3. A true and correct copy of the
opinion, Petitioner's Opening Brief, Respondent's Opening Brief, and Comrie's
Reply Brief filed in the Court Appeal which is attached hereto as APPENDIX "A".
Comrie was the codefendant of Jacob Bock. Included is the Petition for Review.
2.
The denial and records in the Supreme Court of the State of
California Case No. S262424. A true and correct copy of the denial and Petition
for Review to Exhaust State Remedies is attached hereto as APPENDIX "B", for the
Court's reference.
3.
The Superior Court of California, County of San Bernardino excerpts
of Reporters Transscripts from the trial's Closing Arguments, Counsel's Closing
Arguments, and Peoples Redirect to the jury for Case No. FVI1 5021 71 -2 . A true
and correct copy is attached hereto as APPENDIX "C" for the Court's referrence.
4.
The Information filed in People v. Bock etal., San Bernardino County
Superior Court, Case Number FVI1502171-2. A true and correct copy of the
Information, two questions posed by juror's at trial, Jury Instructions given,
Verdict, Special verdict forms, and Abstract of Judgment forms is attached here­
to as APPENDIX "D", for the Court's reference.
5.
The letters to and from Appellate Counsel Joshua L. Siegel. Regard­
ing his tactic's in S.B. 1437's claim on direct appeal is included as APPENDIX
"E", for the Court's reference.
6.
The California Penal Code § 1170.95 effective August 20, 2020.,
Senate Concurrent Resolution 4B, Senate Bill 1437, and the San Bernardino County
District Attorney's office response to the petition filed on June 3, 2020., A
true and correct copy is attached hereto as APPENDIX "F", for the Court's
reference.

Note:
California Rules of Court, Rule *.1115, subd. b, permits citation or
reliance upon an unpublished opinion: 1) "when the opinion is relevant under the
doctrines of law of the case, res judicata, or collateral estoppel" (subd.
b(1)); or 2) "when the opinion is relevant to a criminal or disciplinary action
because it States reasons for a decision affecting the same defendant or
respondent in another such action." (Subd. b(2).
B.

REASONS FOR GRANTING THE PETITION

The foil ruling factors were all present in this case:
(1 )

The jury was instructed on flight. (CALCRIM l\lo. 372.)

(2)

The jury was instructed on Robbery; Intent of Aider and Abettor. (CALCRIM
No. 1603.)

(3)

The jury was instructed with Murder While Committing a Felony. (CALCRIM
No. 3261 .)

(4)1 The jury was instructed on Natural and Probable Consequences. (CALCRIM No.
240.)
(5)

The jury was instructed with Implied Malice. (CALCRIM No. 520.)

(6)

The jury was instructed with Felony Murder Theory. (CALCRIM .Nd.; ,540A'.\))

(7)

The jury was instructed with Felony Murder Theory. (CALCRIM No, 540B.)

(8)

The jury was instructed with Two Theories of Murder. (CALCRIM No. 548.)

(9)

The jury was instructed with Voluntary Intoxication. (CALCRIM No. 625.)

(10) The jury was instructed with Perpetrator or Aider and Abettor. (CALCRIM No.
400.)
(11) The jury was instructed with Aiding and Abetting. (CALCRIM No. 401.)
(12) The jury was instructed with Escape Rule. (CALCRIM No. 3261.)
(13) The jury was instructed with Reasonable Doubt. (CALCRIM No. 220.)
(14) The jury was instructed with Union and Act and Wrongful Intent. (CALCRIMi'h> .
No. 251 .)
The Prosecution's primary theories of first degree murder were:
(1) Direct Aiding and Abetting a Willful, Deliberate, and Premeditated Murder;
(2) Felony Murder iRule based on the participation in the underlying felonies of
robbery and burglary "target crimes" during which afterwards killing occurred.

9.

I.

THE STATE COURT'S RULING ON THE CLAIM BEING PRESENTED
IN THIS COURT WAS SO LACKING IN JUSTIFICATION THAT
THERE WAS AN ERROR WELL UNDERSTOOD AND COMPREHENDED IN
EXISTING LAW BEYOND ANY POSSIBILITY FOR FAIR-MINDED
DISAGREEMENT.
In the instant case, when the record is viewed in light most favorable to

the verdict, it establishes at most Petitioner had an intent to rob and assualt
the victim Mr. Merrigan (herein,

"Bart" or "Merrigan"), independent/apart from

his [co-defendant's] intent to kill. However, "[evidence] which merely raises a
strong

suspicion

of

the

defendant's

guilt

is

not

sufficient

to

support

a

conviction. Suspicion is not evidence; it merely raises a possibility, and this
is not sufficient basis for an inference of fact." People v. Redmond (1969) 71
Cal.2d 745, 755 [79 Cal.Rptr. 529, 457 P.2d 321],
The evidence against Petitioner on the question of the truth of the first
degree

is

so

"fraught

with

uncertainty

as

to

preclude

a

confident

[]

determination of guilt beyond a reasonable doubt." See People v. Reyes (1974) 12
Cal.3d 486, 500 [116 Cal.Rptr. 21 7, 526 P.2d 225] (citation omitted).
The admission of the Felony-Murder rule which does away with a finding of
malice aforethought, premeditation and deliberation as applied to Petitioner for
the deliberate act [of another] (See RT 411-414, 42B, 435-437), attributed to him
was and continues to deny a fundamentally fair trial, and due process clauses of
the 5th and 14th Amendments and excessive/disproportionate sentences of the Bth
Amendment.
This also raises a claim of actual innocence to the actual charge of first
degree

murder

Petitioner

a

by

an

impermissible

fundamentally

fair

instruction

trial.

given

Therefore,

to

the

Petitioner

jury
was

denying
denied

a

reliable determination of the facts. See Jackson v. Virginia (1979) 443 U.S. 307
In re Uinship (1970) 397 U.S. 358; Holmes v. 5. Carolina (2006) 126 5.Ct. 1727;
Osborne v.

Ohio (1990) 495 U.S. 103;

Estelle v. McGuire (1991 ) 502 U.S. 62

Chapman v. California (1967) 386 U.S. 18.
10.

1.

The Direct Aiding and Abetting Theory

"[A]n aider and abettor is chargeable as a principal only to the extent he
or she knouis and shares the full extent of the perpetrator's specific criminal
intent, and actively promotes, encourages

or assists the perpetrator with the

intent and purpose of advancing the perpetrator's successful commission of the
target offense."

(People v.

Snyder

(2003) 112 Cal.App.4th 1200, 1220.)

The

"specific criminal intent" for first degree murder is "'willful, deliberate,
and premeditated killing.
1111,

quoting

§

189.)

i

m

(People v.

Nazeri

"First degree willful,

(201 0) 1 87 Cal.App.4th 1101,
deliberate,

and premeditated

murder involves a cold, calculated judgment, including one arrived at quickly
[citations]

and is evidenced by planning activity

a motive to kill, or an

exacting manner of death." (People v. Carasi (2008) 44 Cal.4th 1263, 1306.) "A
first degree murder conviction will be upheld when there is extremely strong
evidence of planning, or when there is evidence of motive with either planning
or manner." (People v. Romero (2008) 44 Cal.4th 386, 401, underlinning added.)

In the instant case, the plan was to rob and tune up Mr. Merrigan for
molesting Bock's niece. This was in no way for Comrie to settle a score. Idas
why he was reluctant to go at first. Bock, on the otherhand, admitted to the
police when questioned that his decision to shoot Merrigan was a personal one,
stating: "I told him if he ... came near my niece again before he ... left I
was going to ... kill him." (See Appellate Opinion p. 9.) This was not shared
with Comrie,

and this he did. The second reason Bock admitted why he shot

Merrigan was: '"he was lying unconscious and unmoving—but he shot him anyway:
he

"[d]idn't want to

take

the

chance because

he

knew who

I was. ii

i

(See

Appellate Opinion p. 9.) This decision to kill was with the sole contemplation
of Bock. It was not shared with Comrie, was not his plan nor reasoning. The
11 .

prosecution took this nebulous gossamer web of acts and tried to build a con­
crete

conspiracy

of

some

unreported

preplaning

of

a

murder.

Yet,

no

one

testified about their actual plan to kill, or that Comrie had actually knew
about this threat or Bocks propensity to kill. Stiles, Bock's past girlfriend,
testified not even she knew of this propensity to uant to kill, Stiles, also
testified

that

she only

knew they

were

going

to rob Merrigan.

But,

it's

undisputed, that at no time before or during the hatching of this "plan" did
Comrie give any inducement, encouragement, nor coerce Bock to kill. Niether did
he aid and abet a first degree murder, in which he intended a killing to occur.

2.

The Felony-Murder Theory

The problem

with

"felony-murder"

theory

that

the

killings

were

"committed in the perpetration" of the assualt, robbery, or burgiary - is es­
sentially one of timing, or "temporal relationship." (People v. Cavitt (2004)
33 Cal.4th 1B7, 193.) First degree murder liability depends upon the existence
of both a "causal relationship" - "a logical nexus, beyond mere coincidence of
time

and

place,"

between

the homicide and

the

underlying felony

and a

"temporal relationship" - "proof the felony and the homicidal act were part of
one continuous transaction." (Id. at p. 193; see also People v. wilkins (2013)
56 Cal.4th 333, 344-345.) The "one transaction doctrine" defines "the duration
of felony-murder liability," by ensuring

liability attaches "only to those

engaged in the felonious scheme before or during the killing." (Cavitt, supra,
33 Cal.4th at p. 207, quoting People v. Pulido (1997) 15 Cal.4th 71 3, 729.) the
"escape rule" defines the duration of the underlying felony itself, "by deeming
the

felony

to

continue until

the

felon has

reached a place of temporary

safety." (Cavitt, at p. 208.) "[Pjrovided that the felony and the act resulting
in death constitute one continuous transaction," the relation between these
12.

doctrines means liability "may extend beyond the termination of the felony it­
self"

in

some

cases."

(Ibid.)

Thus,

"[F]elony-murder

liability

continues

throughout the flight of a perpetrator from the scene of a robbery until the
perpetrator reaches a place of temporary safety because the robbery and the . . .
death, in such a case, are parts of a 'continuous transaction.'" (Wilkins, at
p. 345, citations and italics omitted.)
But a
continuous

killing during the
transaction'

citation omitted."

flight "establishes the outer limits of the

theory."

Beyond that,

(Wilkins,

supra,

56

Cal.4th

at

p.

345

liability under the felony-murder doctrine

generaly may no longer properly attach (See People v. Johnson (1992) 5 Cal.App.
4th 552,

559

[a killing is

"in the perpetration of a robbery" for murder

liability liability purposes up until the point the "the robber has uon his or
her way even momentarily to _a place of temporary safety"]; Wilkins, at p. 350
[the jury could have reasonably concluded defendant had reached such a place of
temporary safety before the victim's death because "he had been i,driving! for
about &n hour'.at noi'm'aluspeedsnahd'.'□ssdnati-beiflg'-'fblloued ' ] .)

In the instant case, it is fundamentally unfair and in violation of basic
principles of individual criminal culpability to hold one felon liable for the
unforeseen results of another felon's action, especially when such conduct mas
not agreed upon. The tactical purpose the prosecutor choose not to prosecute
under P.C. § 190.2, is in California, to be liable for special circumstance
felony murder ..., pursuant to Section 190.2 of the penal code, the prosecution
must prove the defendant intended to commit the underlying felony and also
prove tuo additional elements: that the person who did not commit the homicidal
act

acted

as

a

major

participant

in the

felony

and

acted with

reckless

indifference to human life; (see People v. Banks (2015) 61 Cal.4th 788.)(underlining added. )
13.

These special circumstance findings have a proscription found in § 190.4,
which states: "(a) .... In a case of a reasonable doubt as to whether a special
is true, the defendant is entitled to a finding that it is not true, (fn, So in
copy. Probably should read "...that is not true.") The trier of fact shall make
a special finding that each special circumstance charged is either true or not
true.

Whenever a special circumstance requires proof of the commission or

attempted comission of a crime, such crime shall be charged and proved pursuant
to the general law applying to the trial and conviction of the crime.

..."

(Id.) The trial court did not put these findings before the jury. The People
forfeited these findings at trial when they chose to charge deliberation,
willfulness, and premeditation pursuant to P.C. § 664(a), in attempts to escape
these special circumstance findings by the jury. The Appellate Court determined
that these findings now had to be made by petition process pursuant to P.C. §
1170.95's remedial process.

That process which legislatively changed P.C. §

189(e), cannot now be applied to Petitioner on Appeal because it inserts an ex
post facto law into his appeal that was not charged or found true by the trier
of fact. This is happening in all appellate districts within California because
the California Supreme Court refuses to issue a guiding opinion about this
issue. Petitioner's case is also significant as to how P.C. § 664(a) is charged
in the information. Yet, Petitioner is not designated as committing attempted
Murder. And does this Court have the authority to rule that S.B. 1437 apply to
attempted murder as well as murder. An issue California still graples with.

Here,

the

entirety of

the

assualt was

contemplated

and completed

by

Comrie. He left the crime scene to a place of temporary safety (3 RT 531, 551553; 1 CT 25B-259, 274-275; CALCRIM Mo. 's 540A, 3261; Wilkins, supra, at 340348.) And was hidden from any possible detection or direct sight, as he was in
the cover of darkness, it was approximately 11:00 p.m. at night. But, the trial
14.

court also instructed on "flight," i.e., that if the defendant left the crime
scene, that conduct could be used to infer consciousness of guilt. (3 RT 523524; 1 CT 254; CALCRIM No. 372; People v. Paysinger (2009) 174 Cal.App.4th 26,
30-32.) Bock admitted to the investigating officer's as to the why he indepen­
dently decided to kill. In the Respondents Brief at p. 34, the following is
stated: "According to Destani's account, Comrie beat Bart [Merrigan] with the
bat, Bock burglarized Bart's home, and while Comrie was waiting at the quad, he
heard

the

fatal

gunshot.

(3

CT

777-7B3.)

Thus

under

either

account

the

underlying robbery and burglary were still ongoing when the killing occurred.
There was no evidence that Bock had reached a place of temporary safety before
Bart was killed." (Respondents Brief at p. 34.)

These instructions listed, supra, as (1 )

(14), are flawed as applied to

Comrie. Like potassium metal and water which are harmless in themselves but can
be lethal when mixed, Comrie maintains instructing his jury under CALCRIM No.'s
540A, 3261, & 372, were not only lethal but fundamentally unfair. (See Bock's
AOB, Section III.)

[For the specific reasons detailed in Appellant's Opening

Brief and below, as Bock's arguments, which Comrie joined, on this point (See
Notice of Ooinder by Comrie under Cal. Rules of Court, rule 8.200(a)(5)), apply
equally to Petitioner.),’ lifjich did produce harmful, prejudicial results. The
harm was

the jury was instructed that the felony-murder rule required in for a

penny in for a pound principal

so that even though Comrie went to the quad,

then Bock carrying the loot he burgled and robbed, who couldn't carry all that
he stole returned to the crime scene to retrieve more goods. Bock of his own
reasoning, then decided to kill Merrigan because, as he admitted, to escape
identification by Merrigan. Not as a plan between Bock and Comrie, who shot and
killed Merrigan by reason only shared by himself, expressed in his confession.
15.

II.

THE DECISION OF THE FOURTH DISTRICT IS IN
CONFLICT WITH THE DECISION OF OTHER
DISTRICTS.
Petitioner

assistance

of

presentation

of

was

denied

counsel
the

his

insofar

state

as

and

trial

invalid theories

federal

counsel's

rights

to

failure

to

the

effective

object

to

the

og guilt for the charges under 664(a)

attached to his first degree murder charge which precludes obtaining relief from
the prejudicial impact of presenting those theories on appeal appellate attorney
failed to raise it on appeal.
The prosecutor relied upon the felony-murder rule as if its doctrinal basis
equally applied. (See RT 411-414, 428, 435-437.) There is obviously no such thing
as the crime of felony attempted murder since the gravamen of attempted murder —
an intent to kill — need not be proved under the felony-murder rule, citing
People v. Billa (20D3) 31 Cal.4th 1064, 1 071, f n. 4, and People v. Bland (2002)
28 Cal.4th 31 3, 328. And the presentation of this legally invalid theory cannot
be set aside based upon the other instructions.

The instruction on the elements

of attempted murder said "(t]he defendant must have intended to l&ll," but also
said the same "defendant" must have taken "at least one direct but ineffectual
step toward killing" the victim. Given that niether Petitioner nor Bock was ever
alleged to have planned or conspired to kill a

"direct step" toward killing

Merrigan, the jury would have just understood this to mean that only perpetrators
had to act with the required "intent to kill." Similarly, the jury would have
understood

the

instruction

on

the

sentencing

enhancement

allegation,

which

required willfulness, premeditation, and deliberation, to have just applied to
the actual perpetrators of the killing — not that Petitioner had to personally
harbor this state of mind.
Basedupon the weakness of any such evidence,

such findings preclude any

conclusion that the jury necessarily did not rely upon this invalid theory.

16.

A.

ANALYSIS OF "CURRENT STATE OF THE LAW" AT TRIAL

Due to the P.C. § 664(a) reference, rather than, the § 190.2(a)(17), law
it is pertinent to brief both. Beginning with People v. Favor (2012) -54 Cal.4th
868, 143 Cal.Rptr.3d 659, 279 P.3d 1131 [(Favor)] uas: "In order to convict an
aider and abettor of attempted willful, deliberate and premeditated murder
under the

natural

and probable consequences

doctrine,

must a premeditated

attempt to murder have been a natural and probable consequence of the target
offense? Should Favor be reconsidered in light of Alleyne v. United States
(2013) 570 U.S. 99 [133 S.Ct. 2151, 186 L.Ed.2d 314 [(Alleyne)] and People v.
Chiu

(2014)

59

Cal.4th 155,

172 Cal.Rptr.3d 438,

325

P.3d 972

[(Chiu)]?"

While Comrie's direct appeal was pending, the Legislature enacted and the
governor signed into law Senate Bill No. 1437 (S.B. 1437), which "amend[s] the
felony murder rule and the natural and probable consequences doctrine, as it
relates

to

murder"

(Stats.

2018,

ch.

1015,

§

1,

subd.

(f)).

On

appeal

Petitioner's counsel argued that this law should have been applied during trial
to no avail. Respondent argued effectively that S.B. 1437 can only be availed
through a petition to the trial court pursuant to P.C. § 1170.95

petition, and

no relief can be sought by appeal. Although, S.B. 1437, is an ameliorative
change in the law that applies to cases pending on appeal at the time of its
enactment under the Estrada Rule. See In re Estrada (1 965) 63 Cal.2d 740; Gov.
Code

§

9608.

The Legislature

did not

inact

a savings

clause,

but,

added

inclusion of a statutory procedure whereby defendants convicted of first degree
felony murder under the old law can seek relief from their first degree murder
convictions (§ 1170/tfi) does not change this fact, because this statutory procedure does not make the defendant's entitlement to the ameliorative relief
contingent on some additional showing
v.

Martinez

(Dan.

24

2019,

such as a lack of riangerousneSS, People

B287255)___ Cal.App.5th___ ,
17.

in which the Second

District held that defendants whose cases were pending on appeal at the time of
Senate Bill 1 437's enactment must seek relief in the superior court under
section 1170.95 and are not entitled to relief on direct appeal (Id. at
[at pp.
continued

23-34]),
as

was

precedent.

wrongly
Cases

decided

are

not

on

this point and should not be

final

for

purposes

of

determining

retroactivity of a statute until the expiration of the time for petitioning for
a writ of certiorari in the United States Supreme Court. (In re Pedro T. (1994)
B Cal.4th 1041 , 1046.)
The Estrada rule of retroactivity reflects the particular considerations
that arise in construing changes in penal statutes. (Evangelatos v. Superior
Court

(198B)

44

Cal.3d

11BB,

1210,

fn.

15.)

To hold that reductions

in

punishment do not apply to pending cases would be to conclude that the enacting
body was "motivated by a desire for vengeance

a conclusion not permitted in

view of modern theories of penology." (Estrada, supra, 62 Cal.2d at 745.) "The
Estrada

rule

rests

on

an

inference

that,

in

the

absence

of

contrary

indications, a legislative body ordinarily intends for ameliorative changes to
the criminal law to extend as broadly as possible,

distinguishing only as

necessary between sentences that are final and sentences that are not." (People
v. Conley (2016) 63 Cal.4th 646, 657 (Conley).) In People v. Francis (1969) 71
Cal.2d 66; People v. White (1 969) 71 Cal.2d B0, B3-B4. Compare with People v.
Martinez, supra, at pp. 23-34. The United States Supreme Court should issue a
Writ of Certiorari to address these disparities in decisions.

B.

fllleyne and Chiu

Petitioner contends the rationales underlying the ruling in Favor have
"been throughly repudiated"

by two subsequent cases,

Alleyne and Chiu.

In

Alleyne, Supra, 133 S.Ct. 2151, 2155, 2156, the U.S. Supreme Court held that
the Sixth Amendment requires any fact that increases the mandatory minimum pen18.

alty for a crime to be treated as an

"element" of the crime that must be

submitted to the jury and found true beyond a reasonable doubt. This holding
was based upon and followed from the court's earlier decision in flpprendi v.
New Jersey (2000) 530 U.S. 466, 494, fn. 19, 120 S.Ct. 2348, 147 L.Ed.2d 435
which held that any fact which increases the maximum penalty for a crime is an
element of the offense that a jury must find true beyond a reasonable doubt.
Approximately

one year

after the

decision

in Alleyne,

the California

Supreme Court held in Chiu, supra, 59 Cal.4th at pp. 158-159 that "an aider and
abettor may not be convicted of first degree premeditated murder under the nat­
ural and probable consequences doctrine. Rather, his or her liability for that
crime must be based on direct aiding and abetting principles." The Chiu

[]

court

is

reasoned

"uniquely
defendant's

that

the

subjective

and

culpability

mental

state

personal,"
and

the

and

underlying
that

perpetrator's

the

premeditated

murder

"connection between

premeditative

state

is

the
too

attenuated to impose aider and abettor liability for first degree murder under
the natural and probable consequences doctrine." Chiu, supra, 59 Cal.4th at p. 166.
The Chiu court discussed Favor at length. "[T]he Chiu Court did consider
its earlier holding in Favor

and specifically did not disapprove its Favor

reasoning." Comrie contends it didn't address it because it was distinguishable
in several respects. The Chiu court found Favor "distinguishable in several
respects" and "not dispositive" of the issues presentedin Chiu. Chiu, supra,
59 Cal.4th at p. 163.

[in otherwords, not an issue they could change.] The

court explained: "unlike Favor, the issue in [Chiu] does not involve the deter­
mination of legislative intent as to whom a statute applies. Also, unlike
Favor, which involved the determination of premeditation as a requirement for a
statutory penalty provision, premeditation and deliberation as it relates to
murder is an element of first degree murder. In reaching the result in Favor,
thev expressly dis.tingui.shed the penalty, provision at issue _the.re_f-r.om. .the sub3

v\.

/
j

stantive crime of first degree premeditated murder on the ground that the lat­
ter statute involved a different degree of the offense.
The consequence of imposing liability for the penalty provision in Favor
is considerably less severe than imDosing liability for first degree murder
under the natural and probable consequences doctrine. Section 664(a) provides
that a defendant convicted of attempted murder is subject to a determinate term
of five, seven, or nine years. If the jury finds the premeditation allegation
true, the defendant is subject to a sentence of life with the possibility of
parole.

With that life sentence,

a defendant is eligible for parole after

serving a term of at least seven years.
hand

§ 3046, subd.

(a)(1). On the other

a defendant convicted of first degree murder must serve a sentence of 25

years to life. § 190. subd.

(a). He or she must serve a minimum term of 25

years before parole eligibility. § 3046, subd. (a)(2). A defendant convicted of
second degree murder must serve a sentence of 15 years to life, with a minimum
term of 15 years before parole eligibility.

§§ 190, subd.

(a), 3046,

subd.

(a)(2)." (Ibid.)
Petitioner contends that the reasons the Chiu court used to distinguish
Favor are-

like Favor itself.

contention

is

a

reasonably

"readily undermined" by Alleyne. Petitioner's

plausible one.

Alleyne held

that

a

fact

that

increases the minimum punishment associated with an offense "is by definition
an element of the offense" that must be found true beyond a reasonable doubt by
a jury Alleyne, supra, 133 5-Ct

at d, 21 58 5 and Chiu continued to characterize

section 664, subdivision (a), which increases the minimum punishment for an
attempted murder that is

premeditated,

Chiu, supra, 59 Cal 4th at o

163

as

However.

a

"statutory penalty provision.
California Supreme Cour

.•fr'ered

additional state law basis in support of the continued vitality of Favor (and
its predecessor case People v-

Lee (2003) 31 Cal.4th 613. 616, 3 Cal.Rotr.3d

402, 74 P- 3d 176 (Lee), in which it held that the premeditation penalty provis20.

ion set forth in section 664. subdivision (a), "must be interpreted to require
only that the murder attempted was willful, deliberate

and premeditated, but

not to require that an attempted murderer personally acted willfully and with
deliberation and premeditation

even if he or she is guilty as an aider and

abettor." In Lee, the court reasoned that section 664, subdivision (a)

"makes

no

direct

distinction

between

an

attempted

murderer

who

is

guilty

as

a

perpetrator and an attempted murderer who is guilty as an aider and abettor"
and does not distinguish "between an attempted murderer who personally acted
with willfulness, deliberation
did not so act." Lee

and premeditation and an attempted murderer who

supra. 31 Cal.4th at p. 623. It accordingly concluded

that premeditation ia not a required "component" of an aider and abettor's
mental state. Favor, supra

54 Cal.4th at p, 877. Although the defendant in Lee

was tried as a direct aider agd abettor, the oqurt recqgnizecj that ag aider and
abettor convicted under the natural and probable consequences doctrine "may be
less blameworthy" than a direct aider and abettor, and noted that it "would not
have been irrational for the Legislature to limit section 664(a) only to those
attempted murderers who personally acted willfully and with deliberation and
premeditation." Lee, supra, 31

Cal.4th at pp. 624-625. The court added, "But

the Legislature has declined to do so." Id. at p. 625. The court reiterated
these observations in Favor. Favor, supra

54 Cal.4th at pp. B77-B7B, and fur­

ther noted that the Legislature had modified other portions of section 664,
including portions of subdivision (a)

but left the penalty provision unchanged

(Id. at p. B79.)
The Favor court supported its conclusion with one additional rationale:
"the jury does not decide the truth of the penalty premeditation allegation
until it fist has reached a verdict on the substantive offense of attempted
murder." Favor
demarcation

supra,

between

the

54 Cal.4th at p.
juriy's

findings
21 .

879.
means

The court reasoned that the
that

"attempted murder-not

attempted premeditated murder-qualifies as the nontarget offense to which the
jury must find foreseeability." (Ibid.)
Moreover,

nothing in Chiu

indicates

the

California Supreme

Court was

unaware of or incorrectly understood federal constitutional law. Although Chiu
did not rely upon or even cite Alleyne (see generally) Chiu, supra, 59 Cal. 4th
155,

the appellate courts presume the California Supreme Court was aware of

Alleyne. See People v. Harden (2003) 110 Cal.App.4th 848, B65, 2 Cal.Rptr.3d
105. The court previously noted Alleyne in two cases. People v. Nunez (2013) 57
Cal.4th 1, 39, fn. 6, 158 Cal.Rptr.3d 585, 302 P.3d 981 and People v. Harris
(2013) 57 Cal.4th 804, BB0, 161 Cal.Rptr.3d 364, 306 P.3d 1195 (cone. opn. of
Kennard, 0.). Notwithstanding Alleyne, California Supreme Court in Chiu elected
to leave Favor and Lee intact, and maintain a distinction between first degree
murder and

attempted premeditated murder

for

purposes

of

the

natural

and

probable consequences doctrine.
" [A]11 tribunals exercising inferior jurisdiction are required to follow
decisions of courts exercising superior jurisdiction." Auto Equity Sales Inc.
v. Superior Court of Santa Clara County (1962) 57 Cal.2d 45D, 455, 20 Cal.Rptr.
321, 369 P.2d 937. It is not the Fourth Appellate Court's "function to attempt
to

overrule

decisions

Amendment principles

of

a

is not

higher
so

court."

Alleyne's

discussion

"clear and unavoidable"

as

of

Sixth

to present the

"unusual circumstances" which warrant a departure from the general mandate of
stare

decisis.

People

v.

Saez

(2015)

237

Cal.App.4th

1177,

1207,

189

Cal.Rptr.3d 72.

C.

S.B. 1437

Petitioner contends that S.B. 1437 must now reach attempted murder as well
as murder,
directed to

and that this court is empowered to issue a liJrit of Certiorari
the

Fourth Appellate District because S.B.
22.

1437's ameliorative

provisions are presumptively retroactive to all murder convictions ([attempted
or not], if not the actual killer, and no finding by the trier of fact as to
the

major participant and acted with reckless indifference to human life"

being found true), on his nonfinal conviction under Estrada, supra, 63 Cal.2d
74G. The Attorney General responds that gection 1170.95 provides the exclusive
procedureby which defendants may seek relief under S.R. 1437

and the Courts of

Appeals in California have all decided that section 664 is not cognizable under
5.B. 1437, and for murder that statute requires Petitioner to file a petition
in the trial court in the first instance. This procedure as interpreted by the
Attorney General is that they get to argue Petitioner was a "major participant
and acted with reckless indifference to human life" a fact that they forfeited
when they decided to try petitioner under section 664(a) rather than under
section 190.2, which requires that fact presented to the jury. This act would
necessitate an ex post facto consideration. The change in the law which put an
ameliorative section 1RR is reroactive to all cases not yet final. When the new
legislation goes into effect, it will apply retroactively to all cases not yet
final. See, e.g., In re Estrada, supra, at pp. 745-74B. Petitioner's conviction
was

not

final

on

January

1,

2020.

See

California

8.360(c)(3)[time to file appellant's reply brief],
Court of

Appeal

decision],

8.500(e)(1)[time

to

Rules of Court,

8.366(b)(1)

rules

[finality of

file petition for review],

8.532(b)(1)[finallity of Supreme Court decision]; see also, e.g., In re Diaz
/
(2017) 8 Cal.App.5th 812, R22 ["a judgment is 'final' for purposes of the
Estrada rule when courts on direct review can no longer provide a remedy,
including the time within which to petition to the United States Supreme Court
for writ of certiorari'].) Petitioner raises the issues a a matter of right and
in the interest of fundamental fairness and judicial economy, equally. Although,
U.S.

Supreme

Court

review,

is

discretionary

the

issue

is

of

statewide

importance involving constitututional prejudicial harm to 8, D001- individuals.
23.

D.

Determining Whether Issue Has Been Preserved for Appeal

5ome errors may be raised on appeal even without a timely trial court ob­
jection. See e.g., Pen. C § 1259 (appellate court may review any instruction
given,

refused,

or modified,

even when no objection was made in the lower

court, if the instruction affected any substantial rights of the defendant);
People v. Scott (1994) 9 C.4th 331, 354, 36 CR2d 627 ("unauthorized sentence"
correctable by reviewing court in first instance);

People v. Ary (2004) 11B

CA4th 1016, 13 CR3d 482 (issue of competence to stand trial may not be waived).
Even if it appears that an otherwise viable claim has been forfeited by a
failure to object in the trial court, appellate counsel should still strongly
consider raising it on appeal. For one thing, the fact that the right to raise
an issue on appeal may have been forfeited by failure to raise it below does
not preclude the

appellate

court

from considering

the

issue

and granting

relief. See People v. Smith (2003) 31 C4th 1207, 1215, 7 CR3d 559; People v.
Johnson (2004) 11 9 CA4th 976,9B4, 14 CR3d 7B0. Hamling v. U.S., 418 U.S. B7, 102 (1974).
Moreover, if trial counsel has forfeited an important claim of error by
failing to object, appellate counsel can then raise the issue through a claim
of ineffective assistance of counsel, asserted either on direct appeal, in a
habeas corpus petition, or both. If the underlying issue is raised on direct
appeal,

and

the

respondent's

brief

depends

entirely

or

primarily

on

the

asserted waiver (as oppose to arguing the merrits of the issue), that can help
frame a subsequent ineffective assistance claim on habeas corpus.
Although there is no established federal constitutional right to appeal a
criminal conviction, when that right is provided by state law—as it is in
Californi

-the federal Constitution guarantees an indigent defendant the right

to counsel on appeal at public expense. In re Barnett (2003) 31 C4th 466, 473,
See Douglas v. California
(V9'B2) 372 US ’353', 9 L.Ed.2d B11
i
...--------- !—:-------------------S.Ct. 814; I-n re Kevin S. (2003) 113 CA4th 97, 6 CR3d 17B.
3 CR3d 10B;

24.

83

E.

Ineffective Assistance of Counsel

There is no Sixth Amendment right to self-representation on direct appeal.
Martinez v. Court of Appeal (20D0) 528 US 1 52, 145 L.Ed.2d 597, 12D S.Ct. 684.
Therefore, appellate counsel has an obligation to raise meritorious claims of
error on appeal. Anders v. California (1967) 386 U.S. 738, 743-744; People v.
Dohnson (1981) 123 Cal.App.3d 106, 111. Meritorious claims include those of
sufficient

substance

to

have

a

reasonably

strong

potential

for

obtaining

reversal or other relief or for making new laid. Dohnson, at p. 111; People v.
Von Staich (1980) 101 Cal.App.3d 172, 175. The Petitioner's right to effective
assistance of appointed appellate counsel requires that when a meritorious
claim of error is omitted from the initial briefing, appellant's counsel take
steps to present that claim of error to the reviewing court in supplemental
briefing. See In re Smith (1970) 3 Cal.3d 192, 202-204. Petitioner's counsel
instead abandoned his duty to present it when requested.
Neither justice nor judicial economy is served by refusing supplemental
briefing and consequently failing to consider the issue properly on appeal.
Later writ

proceedings

and

claims

of

ineffective

assistance of

appellate

counsel or other grounds for collateral attack are costly, indirect, duplicat­
ive, and less effective than proper appellate processes in the first place.
The California Court has described two types of accomplices who fall within
a Penal Code § 31 , statutory definition such as: Those who directly encourage or
assist in the commission of the charged offense and those who are liable under
the natural and probable consequences rule. But this was pre Chiu, and S.B. 1437.
A defendant

is

a

direct

aider

and

abettor

if

" 'he

or

she,

(i)

with

knowledge of the unlawful purpose of the perpetrator, (ii) and with the intent or
purpose of committing; facilitating or encouraging commission of the crime, (iii)
by act or advice, aids, promotes, encourages or instigates the commission of the
crime.

t

ii

People v._ Delgado

(2013)

56 Cal.4th.ABJL, 4B6_, jguoting People v. Cooper
. J

25.

(1 991 ) 53 Cal.3d 11 58, 1164.
Indirect liability of the aider and abettor, under the natural and probable
consequences rule, is more complex, requiring a five-step process. The jury must
find

that

"the

defendant

(1)

with

knowledge

of

the

confederate's

unlawful

purpose; and (2) with the intent of committing, encouraging, or facilitating the
commission of any target crime(s); (3) aided, promoted, encouraged, or instigated
the commission of the target crimes," People v. Prettyman (1996) lk.Eal.4th 248 .at r. 27lThe
jury must also find that "(4) the defendant's confederate committed an offense
other than

the

target

crime(s);

and

...

(5)

the

offense

committed

by

the

confederate was a natural and probable consequence of the target crime(s) that
the defendant encouraged or facilitated." (Ibid., italics omitted. Requirements
(4) and (5) are at issue here.
Under
derivative,'

the

natural

and

probable

consequences

rule,

liability

"is

that is, it results from an act by the perpetrator to which the

accomplice contributed." Prettyman, supra, 14 Cal.4th at p. 259. A crime is the
natural and probable consequence of an intended or target crime if its commission
by the perpetrator was reasonable foreseeable. "The . .. question is not whether
the aider and abettor actually foresaw the additional crime, but whether, judged
objectively, it was reasonably foreseeable." People v. Medina (2009) 46 Cal.4th
913, 920
"A reasonably foreseeable consequence is to be evaluated under all the factual
circumstances of the individual case .

and is a factual issue to be resolved by

the jury." (Ibid.)(underlining added.)
Here, in the istant case, the trial court erred in its instructions to the
jury. The jury was instructed that it could convict him of first degree murder
solely because he

aided

the underlying robbery and burglary where a murder

occurred and that some form of murder (irrespective of degree) was a natural and
probable consequence of the target ,qrime. of either the, assault or the burglaries
26.

or robbery that defendant had aided and abetted. Under the instructions, the jury
was not required to decide whether the increased punishment of first degree
murder had met the requirement that every offense is made up of factual elements,
each of which must be proven by the prosecution to establish the commission of
the offense. Richardson v. U.S. (1999) 526 U.S. 813, 817.
Here,

the jury convicted

Petitioner of first degree murder,

which,

as

pertinent here, is statutorily defined as a willful, deliberate, and premeditated
killing with malice aforethought. But the trial court did not instruct the jury
that to convict Petitioner of accomplice first degree murder the jury must find
that it was

reasonably foreseeable that the actual perpetrator,

Bock,

would

commit a premeditated murder. Instead, the court essentially instructed the jury
that it could convict petitioner of first degree murder if any murder occurred
while burglary and robbery was committed. Murder includes not only premeditated
(first degree) murder, but also unpremeditated (second degree) murder. Thus, the
trial court's instructions here permitted the jury, applying the felony murder
rule,

to

conclusion

convict
that

defendant of premeditated
only

second

degree

murder

first
was

degree murder based
a

reasonable

on

a

foreseeable

consequence of the target crime of assault.
The presentation of this legally invalid theory can be set aside based upon
the other instructions. The instruction on the elements of attempted murder said
"]t]he defendant must have intended to kill,". Given that Petitioner was ever
alleged to have intended to kill (3 RT 427-428.), the jury would have just understtod this to mean the perpetrator had to act with the required "intent to kill."
Similiarly, the jury would have understood the instruction on the sentencing en­
hancement allegation, which required willfulness, premeditation, and deliberat­
ion, to have just applied to the actual perpetrator of the killing — not that
Petitioner had to personally harbor this state of mind.
27

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

PatrfcK Comrie

Date: September

2-\

U

2020

2P ■

